                     AUDIT REPORT

                      Audit of National Source Tracking
                        System Information System
                                Development

                      OIG-09-A-03 November 20, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                   November 20, 2008

MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NATIONAL SOURCE TRACKING SYSTEM
                            INFORMATION SYSTEM DEVELOPMENT (OIG-09-A-03)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of
National Source Tracking System Information System Development.

The report presents the results of the subject audit. Agency comments provided at the
November 6, 2008, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5911.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
  Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
  Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
  State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
  and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                             Audit of National Source Tracking System Information System Development



EXECUTIVE SUMMARY

        BACKGROUND

                The National Source Tracking System (NSTS) is an initiative of the
                Nuclear Regulatory Commission (NRC) designed to allow
                Agreement State1 and Federal Government agencies to track
                transactions of specific types and quantities of radiological sealed
                sources.2 This will include radiological sources held by the
                Department of Energy, and by NRC and Agreement State
                licensees. Licensees are businesses and other organizations
                licensed to possess radiological sources. Tracking capabilities will
                span the entire life cycle of each source, from manufacture or
                import to receipt and transfer, ending with export, decay, or burial.

                NRC awarded a contract worth approximately $15 million in
                December 2005 for NSTS information system development,
                operational support, and maintenance. This contract included
                approximately $3.1 million to fund information system development.

        PURPOSE

                The audit objective was to evaluate the agency’s management of
                NSTS information system development and assess delays in the
                development process. The report appendix contains information on
                the audit scope and methodology.

        RESULTS IN BRIEF

                NRC had planned to develop the NSTS information system so that
                licensees could begin reporting radiological source data in
                November 2007. However, NRC’s contractor did not complete
                system development work on schedule. NRC has therefore
                postponed system deployment until December 2008, and has
                revised the licensee reporting deadline to January 2009. System
                development delays resulted from a lack of clear policies and
                procedures for review of key system security documentation, and
                for coordinating efforts among internal stakeholders.

1
  The Atomic Energy Act of 1954 allows NRC to delegate to State governments some authority to
license and regulate radiological materials. States that have signed formal regulatory agreements
with NRC are known as “Agreement States.”
2
 Radioactive material may be in the form of a sealed source, which is the term used to describe
radioactive material that is permanently sealed in a capsule or closely bonded in a solid form.
This report refers to radiological sealed sources as “radiological sources.”



                                                i
               Audit of National Source Tracking System Information System Development



     Technological, organizational, and staffing issues were additional
     factors cited by NRC staff. As a result of these delays, NRC
     incurred added contract costs of approximately $2.8 million.
     Furthermore, NRC has postponed by 18 months the deployment of
     the NSTS information system, which agency officials consider a
     top-priority project for improving accountability of radiological
     sources. NRC is planning information systems to complement
     NSTS in the near future; however, these systems could face similar
     challenges if the agency does not address underlying causes of
     problems encountered during the NSTS project.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director of
     Operations to improve NRC’s management of information system
     development.

AGENCY COMMENTS

     At a November 6, 2008, exit conference, NRC senior managers
     agreed with the report contents and provided editorial suggestions.
     This final report incorporates revisions made, where appropriate, as
     a result of the agency’s suggestions.




                                  ii
              Audit of National Source Tracking System Information System Development



ABBREVIATIONS AND ACRONYMS

       C&A               Certification and Accreditation

       CFR               Code of Federal Regulations

       CSO               Computer Security Office

       DOE               Department of Energy

       FSME              Federal and State Materials and Environmental
                         Management Programs

       IAEA              International Atomic Energy Agency

       NIST              National Institute of Standards and Technology

       NMSS              Office of Nuclear Material Safety and
                         Safeguards

       NRC               Nuclear Regulatory Commission

       NSTS              National Source Tracking System

       OIS               Office of Information Services

       OMB               Office of Management and Budget

       PMM               Project Management Methodology




                                 iii
Audit of National Source Tracking System Information System Development




 [Page intentionally left blank.]




                   iv
                      Audit of National Source Tracking System Information System Development



TABLE OF CONTENTS


        EXECUTIVE SUMMARY..............................................................i

        ABBREVIATIONS AND ACRONYMS ........................................ iii

            I.     BACKGROUND .............................................................1

            II.    PURPOSE .....................................................................5

            III.   FINDING ........................................................................6

                          NSTS INFORMATION SYSTEM DEVELOPMENT
                          DELAYED PRIMARILY BY LACK OF CLEAR
                          POLICIES AND PROCEDURES .....................................6

                          RECOMMENDATIONS ...............................................13

            IV.    AGENCY COMMENTS ................................................13


        APPENDIX

        SCOPE AND METHODOLOGY ................................................15




                                            v
Audit of National Source Tracking System Information System Development




 [Page intentionally left blank.]




                   vi
                             Audit of National Source Tracking System Information System Development



I.    BACKGROUND

                Introduction

                The National Source Tracking System (NSTS) is an initiative of the
                Nuclear Regulatory Commission (NRC) designed to allow
                Agreement State3 and Federal Government agencies to track
                transactions of specific types and quantities of radiological sealed
                sources.4 This will include radiological sources held by the
                Department of Energy (DOE), and by NRC and Agreement State
                licensees. Licensees are businesses and other organizations
                licensed to possess radiological sources. Tracking capabilities will
                span the entire life cycle of each source, from manufacture or
                import to receipt and transfer, ending with export, decay, or burial.

                Emerging Threats Drive NSTS

                After the terrorist attacks in the United States on September 11,
                2001, NRC conducted a comprehensive review of nuclear material
                security requirements. This review included a focus on radioactive
                materials that could be used to create a radiological dispersal
                device.5 NRC’s review considered the changing domestic and
                international threat environments and related U.S. Government-
                supported international initiatives in the nuclear security area,
                particularly activities conducted by the International Atomic Energy
                Agency (IAEA). In May 2003, DOE and NRC jointly issued a report
                titled ‘‘Radiological Dispersal Devices: An Initial Study to Identify
                Radioactive Materials of Greatest Concern and Approaches to
                Their Tracking, Tagging, and Disposition.’’ This report
                recommended development of a national tracking system to better
                monitor the location and movement of radiological sources.




3
  The Atomic Energy Act of 1954 allows NRC to delegate to State governments some authority to
license and regulate radiological materials. States that have signed formal regulatory agreements
with NRC are known as “Agreement States.”
4
 Radioactive material may be in the form of a sealed source, which is the term used to describe
radioactive material that is permanently sealed in a capsule or closely bonded in a solid form.
This report refers to radiological sealed sources as “radiological sources.”
5
 These devices are commonly known as “dirty bombs.” According to NRC, most dirty bombs
would not release enough radiation to kill people or cause severe illness; rather, conventional
explosives in the device would cause greater harm than its radioactive components. However,
depending on the scenario, a dirty bomb explosion could create fear and panic, contaminate
property, and require potentially costly cleanup.



                                                1
                            Audit of National Source Tracking System Information System Development



                Legislative Basis for NSTS

                The Energy Policy Act of 2005 requires NRC to issue regulations
                establishing a mandatory tracking system for radiation sources in
                the United States.6 The act sets requirements for identifying
                individual radiological sources (e.g., by serial number), and for
                reporting any change of possession or loss of control of these
                materials. In addition, the system is to enable reporting through a
                secure Internet connection. NRC fulfilled its legislative mandate in
                November 2006 by amending the Code of Federal Regulations
                (CFR) to include provisions for NSTS.7

                Internal and External NSTS Stakeholders

                The NSTS initiative involves internal NRC stakeholders and the
                contractor selected to develop the system, as well as external
                stakeholders representing other Federal Government agencies,
                State governments, and licensees. NRC’s Office of Federal and
                State Materials and Environmental Management Programs (FSME)
                is the NSTS information system owner. The Office of Nuclear
                Material Safety and Safeguards (NMSS) was the initial system
                owner before FSME became a separate agency office in October
                2006. A project team composed of FSME staff manages NSTS
                development, while a contractor performs most of the work needed
                to design, build, and deploy the information system. NRC awarded
                a contract worth approximately $15 million in December 2005 for
                NSTS information system development, operational support, and
                maintenance; this contract included approximately $3.1 million to
                fund information system development. Other NRC stakeholders
                include NRC’s Office of Information Services (OIS), which provides
                project management guidance and review, and the Computer
                Security Office (CSO), which reviews system design documents to
                ensure compliance with Federal Government standards for
                securing information systems. Prior to the establishment of CSO
                as a separate agency office in November 2007, OIS performed
                these reviews. External stakeholders include DOE and Agreement



6
  Under the act, radiation source means a Category 1 source or a Category 2 source as defined
in the IAEA Code of Conduct and any other material that poses a threat, as determined by the
Commission, other than spent nuclear fuel and special nuclear material. Per NRC regulations, the
term “nationally tracked source” does not include material encapsulated solely for disposal, or
nuclear material contained in any fuel assembly, subassembly, fuel rod, or fuel pellet.
7
 Federal Register, Vol. 71, No. 216, November 8, 2006. 10 CFR Parts 20 and 32, “National
Source Tracking of Sealed Sources.”



                                               2
                 Audit of National Source Tracking System Information System Development



      State officials, who will use NSTS to conduct oversight in their
      respective jurisdictions, as well as licensees such as industrial
      businesses, medical facilities, and research organizations.

      Functional Overview of NSTS Information System

      Once the NSTS information system is deployed, the contractor will
      continue to maintain the system. Licensee personnel will report
      data through a secure Internet connection; however, licensees will
      also have the option of reporting information by mail, fax, or
      telephone. DOE and Agreement State officials will have access
      rights enabling them to view and enter data for licensees and
      activities under their respective jurisdictions.

      To reduce risk of unauthorized personnel accessing NSTS and
      compromising its data, NRC will issue “hard token” authentication
      devices to authorized users. For NSTS, the hard token is a
      cryptographic device that stores digital certificates and keys for use
      in electronic authentication. Authentication by means of the hard
      token requires the user to type the password for the hard token into
      the user’s computer during the login to NSTS. The combination of
      the hard token device and the user’s password is known as “two-
      factor authentication.” Figure 1.1 shows a NSTS hard token
      authentication card.

Figure 1.1 Example of NSTS Hard Token Authentication Card




Source: NRC

      Once NSTS reporting deadlines take effect, licensees will be legally
      obligated to conduct annual physical inventories of source materials
      in their possession, and reconcile discrepancies found between
      their physical inventories and data stored in NSTS. NRC asserts
      that NSTS, on its own, will not ensure physical protection of
      radiological materials. Rather, the agency expects NSTS to
      improve accountability for radiological sources. NRC also expects




                                    3
                            Audit of National Source Tracking System Information System Development



                 NSTS to complement two other systems being planned to enhance
                 oversight of radiological source materials. These systems—Web-
                 based licensing and automated license verification—are scheduled
                 for deployment between 2010 and 2011.

                 Information Technology Security and Project Management
                 Guidance

                 In developing the NSTS information system, NRC must comply with
                 Federal Government regulations for information technology
                 security. The National Institute of Standards and Technology
                 (NIST) issues supplementary risk assessment guidance, as well as
                 technical publications that prescribe standards for data protection
                 and user authentication.8 The Office of Management and Budget
                 (OMB) issues guidance to Federal agencies for assessing
                 information system risk and security requirements.9 NRC
                 Management Directive 12.5, “NRC Automated Information Security
                 Program,”10 provides guidance for complying with Federal
                 regulations, and assigns roles and responsibilities to agency staff
                 for implementing security measures to protect NRC information and
                 information systems.

                 NRC staff responsible for managing information technology projects
                 use the agency’s Project Management Methodology (PMM), which
                 became official guidance in June 2007.11 The PMM establishes
                 agency processes to be followed throughout all phases of an
                 information system’s life cycle. The NSTS project team was among
                 the first to use an early version of the PMM in 2006 as it replaced
                 NRC’s previous methodology.12 The PMM is still evolving, as the

8
 Federal Information Processing Standards (FIPS) Publication 199, “Standards for Security
Categorization of Federal Information and Information Systems,” February 2004; FIPS Publication
200, “Minimum Security Requirements for Federal Information and Information Systems,” March
2006; NIST Special Publication 800-53, “Recommended Security Controls for Federal Information
Systems,” Rev. 1, December 2006; FIPS Publication 140-2, “Security Requirements for
Cryptographic Modules,” May 25, 2001.
9
 OMB Circular No. A-130, Appendix III, “Security of Federal Automated Information Resources,”
November 28, 2000; OMB M-04-04, “E-Authentication Guidance for Federal Agencies,”
December 16, 2003.
10
  Management Directive 12.5, “NRC Automated Information Security Program,” revised
September 12, 2003.
11
  Management Directive 2.8, “Project Management Methodology,” Volume 2: Information
Technology, June 19, 2007.
12
     The System Development Life Cycle Management Methodology.



                                               4
                              Audit of National Source Tracking System Information System Development



                  agency develops templates for project deliverables, and works to
                  integrate resource planning, security, and other requirements into a
                  mature methodology.

                  Within the PMM, security reviews and approvals occur through a
                  discrete process called Certification and Accreditation (C&A).13
                  Certification requires a comprehensive assessment of the
                  managerial, operational, and technical security controls in an
                  information system to determine the extent to which these controls
                  are implemented correctly, operate as intended, and fulfill system
                  security requirements. Accreditation represents the decision of a
                  senior agency official to authorize operation of an information
                  system and to explicitly accept the risk to agency operations,
                  agency assets, or individuals, based on the implementation of an
                  agreed-upon set of security controls. Once in operation, an
                  information system must be re-certified and re-accredited on a 3-
                  year cycle.


II.      PURPOSE

                  The audit objective was to evaluate the agency’s management of
                  NSTS information system development and assess delays in the
                  development process. The report appendix contains information on
                  the audit scope and methodology.




13
      CSO manages this process for NRC information systems.



                                                 5
                              Audit of National Source Tracking System Information System Development



III. FINDING

                  NSTS Information System Development Delayed Primarily by
                  Lack of Clear Policies and Procedures

                  NRC had planned to develop the NSTS information system so that
                  licensees could begin reporting radiological source data in
                  November 2007. However, NRC’s contractor did not complete
                  system development work on schedule. NRC has therefore
                  postponed system deployment until December 2008, and has
                  revised the licensee reporting deadline to January 2009. System
                  development delays resulted from a lack of clear policies and
                  procedures for review of key system security documentation, and
                  for coordinating efforts among internal stakeholders.
                  Technological, organizational, and staffing issues were additional
                  factors cited by NRC staff. As a result of these delays, NRC
                  incurred added contract costs of approximately $2.8 million.
                  Furthermore, NRC has postponed by 18 months the deployment of
                  the NSTS information system, which agency officials consider a
                  top-priority project for improving accountability of radiological
                  sources. NRC is planning information systems to complement
                  NSTS in the near future; however, these systems could face similar
                  challenges if the agency does not address underlying causes of
                  problems encountered during the NSTS project.


                  NSTS Timelines and Information System Development Plans

                  In November 2006, NRC amended its regulations14 to establish
                  NSTS reporting requirements for licensees that possess specific
                  types of radiological sources. The new regulations required
                  licensees to begin reporting Category 1 sources by November 15,
                  2007, and Category 2 sources by November 30, 2007.15 The
                  transactions to be reported to NSTS include manufacture, transfer,
                  receipt, disassembly, and disposal of these radiological sources.

                  In addition to these licensee reporting dates, NRC set internal
                  benchmarks for developing the information system to be used for
                  processing radiological source data. In 2004, the NSTS sponsor
                  office16 conducted a business case analysis to evaluate four NSTS

14
     10 CFR 20.2207.
15
  Category 1 and 2 sources are defined in the IAEA Code of Conduct, Annex I, for specific
radionuclides.
16
     At this point, NMSS was the system sponsor.


                                                   6
                             Audit of National Source Tracking System Information System Development



                information system options, and selected one particular option on
                the basis of cost, benefit, and risk to NRC. This analysis described
                how the recommended information system would operate and
                included a project plan for developing the system over a 19-month
                period. The project plan broke system development down into
                discrete tasks that were linked to internal review milestones.
                Further, the project plan assumed a “modular” design approach,
                which was intended to enable different information system
                elements to be built independently of one another so that delays in
                one element would not hold up the entire project. In December
                2005, NRC awarded a contract to build the NSTS information
                system. This contract reflected NRC’s business case analysis by
                funding system development and initial deployment support17 for a
                24-month period beginning December 22, 2005, and ending
                December 31, 2007. The contract’s statement of work detailed
                information system development tasks to be performed by NRC’s
                contractor and established project milestones. Together, these
                documents show that NRC staff intended—and exercised due
                diligence in planning—to deploy the NSTS information system to
                meet licensee reporting deadlines set for November 2007.

                Information System Development Delays

                In October 2007, NRC announced that NSTS implementation would
                be delayed for technical reasons, and subsequently revised
                regulations to require licensee reporting of radiological source data
                by January 31, 2009, rather than the previous deadlines in
                November 2007. NRC attributed this delay to the emergence of
                new technology that would enhance NSTS security. The NSTS
                information system is unique insofar as it requires a high level of
                security, while also allowing access to NRC and DOE staff, as well
                as non-Federal Government users, including Agreement State
                officials and licensee personnel. NRC staff determined that NSTS
                would require a high level of security because, in their estimate, a
                system breach could compromise sensitive data and severely
                impact public health, safety, and security.18




17
   NSTS contract documents refer to system development as “Task 1,” which entails 31 subtasks
to be conducted by NRC’s contractor. For instance, Task 1.1 is “Obtain Development
Environment Purchase Approval”; Task 1.2 is “Develop Software Development Plan.”
18
   NIST and OMB authentication guidance prescribes system security standards based upon
potential effects of a system breach resulting from a user authentication error. More severe
effects require a higher level of authentication assurance.



                                                7
                                 Audit of National Source Tracking System Information System Development



                   NSTS information system development concluded in September
                   2008. NRC plans on deploying NSTS in December 2008 to meet
                   the revised licensee reporting deadline of January 31, 2009. In the
                   interim, CSO staff must review C&A documentation for NSTS and
                   grant its sponsor (FSME) either full or interim authority to operate
                   the system. NRC must also verify the identity of prospective
                   system users, and then issue authentication devices to authorized
                   users.19 In addition, NRC plans to provide training for Agreement
                   State officials and licensee personnel. Figure 1.2 shows key
                   events and dates in the development of the NSTS information
                   system.

           Figure 1.2: Timeline of NSTS Information System Development


     December               November                                  November                                  January
       2004                   2006                                      2007                                     2009

                 December                    June       October                    September       December
                   2005                      2007        2007                        2008            2008




                                            Proposed        NRC                     Staff report    Projected
                  NSTS
                                             NSTS       announces                     NSTS         deployment
                 contract
                                           deployment      NSTS                    development       date of
                 awarded
                                              date      delayed for                  complete        NSTS
      NMSS                                               technical      Original                              New NRC
                            10 CFR 20,
     submits                32 reporting                  reasons        NRC                                  regulation
     Business                regulation                               regulation                               reporting
       Case                    issued                                  reporting                                date for
     Analysis                                                           date for                                 NSTS
                                                                         NSTS

           Source: OIG analysis of NRC and Federal Register documents.

                   Lack of Clear Guidance for Project Management and System
                   Documentation, and for Internal Stakeholder Coordination

                   Delays in NSTS development resulted in part from the lack of clear
                   standards for project management and system design
                   documentation, and from lack of clear direction for internal
                   stakeholder coordination. According to NRC staff, technological
                   challenges inherent in NSTS, NRC organizational issues, and
                   staffing problems were additional factors.




19
     A contractor will perform these tasks for NRC.



                                                           8
                            Audit of National Source Tracking System Information System Development



               Information System Documentation

               Delays in NSTS information system development were caused in
               part by the lack of clear standards for project management and
               system security documentation. The NSTS project team was
               among the first to use NRC’s new PMM as the agency transitioned
               away from its previous guidance for managing information system
               development. OIS was supposed to provide NRC and contractor
               staff with PMM guidance and templates to help them prepare
               system design documents, some of which are required for the C&A
               process. OIS had not finalized these templates when NSTS
               information system development began in January 2006, and
               NSTS project staff had to revise their initial submissions multiple
               times as templates changed, thereby resulting in extra work.
               Moreover, senior OIS and NMSS staff acknowledged in a
               November 2005 project kickoff meeting the need to facilitate C&A
               by creating documentation guidance and quality standards early in
               the NSTS information system development process, with January
               2006 as the goal. Nevertheless, staff who were involved in the
               NSTS project in early 2006 told auditors that they lacked quality
               standards to guide preparation and review of key system design
               documentation. This lack of guidance is evidenced by disputes
               among NRC staff about whether a System Architecture Document20
               was required for C&A, the level of detail required in this document’s
               preliminary drafts, and whether specific aspects of system security
               could be elaborated at a later stage in the project. Staff reported
               similar problems with standards for writing the system’s Security
               Categorization, which serves as the basis for assessing security
               risks and selecting appropriate controls. Without consensus about
               quality standards for system design and security documents, NSTS
               project staff and OIS reviewers became involved in prolonged
               review and revision cycles.

               Coordination of Internal Stakeholder Efforts

               NSTS information system development delays also resulted from a
               lack of direction to coordinate internal stakeholders’ work on the
               project. At the November 2005 project kickoff meeting, participants
               acknowledged the need for close coordination among NRC staff
               involved in NSTS development, as well as the need for early review
               of system security plans. In January 2006, OIS assembled a
               special “Tiger Team” to serve as a focal point for communications

20
  The System Architecture Document provides a comprehensive overview of an information
system’s architecture. It discusses design goals, constraints, and assumptions, as well as
hardware layout and other technical aspects of system design.



                                               9
           Audit of National Source Tracking System Information System Development



among different OIS offices, the NSTS project team, and NRC’s
contractor. However, OIS and NSTS project staff told auditors that
this approach did not meet its intended purpose of facilitating staff
communication and coordination. Some Tiger Team staff reported
that their roles and responsibilities were not clearly defined.
Several NSTS project staff perceived a lack of coordination within
OIS, despite Tiger Team efforts, as PMM and C&A guidance often
changed without a clear reason. Also, an OIS official reportedly
instructed OIS’s senior security official not to communicate directly
with NRC’s contractor and to relay communications through the
Tiger Team. In retrospect, staff recommended to auditors that
periodic reviews involving key internal stakeholders such as OIS’s
senior security official, starting early in the development process,
could have provided opportunities to address potential system
design problems and resolve them before development work
proceeded.

The lack of coordination among internal NRC stakeholders
adversely affected the contractor’s work. In one instance,
installation of the contractor’s data servers to be used in building
the NSTS information system was delayed while NRC staff
disputed whether the servers and NRC networks would be
adequately secured. In another instance, which reportedly had
greater bearing on the NSTS development schedule, OIS and
NSTS project staff team took differing positions on the proper
means for securing the system, particularly with regard to user
authentication. OIS’s senior security official began to review system
design plans and raise concerns about security 6 months after the
contractor had begun development work. In addition, OIS did not
approve the Security Categorization, which the contractor needed
to complete the system Risk Assessment, until 10 months after
development began. As contract funds ran low and NRC staff had
not reached agreement with the contractor regarding outstanding
system design issues, NSTS project team staff suspended system
development work. In the interim, the contractor conducted market
research to identify commercially available security solutions for the
NSTS project. OIS officials and NSTS project team staff eventually
resolved this impasse through high-level meetings with the
contractor’s management and its senior subject matter expert.
NRC staff estimated that this dispute prolonged the NSTS
development schedule by approximately 1 year.




                             10
                             Audit of National Source Tracking System Information System Development



                Technical, Organizational, and Staffing Challenges

                According to NRC staff, problems with documentation standards
                and internal stakeholder coordination were compounded to some
                extent by technical challenges inherent in NSTS, NRC’s
                decentralized approach to information system management, and
                staff turnover. First, the user authentication issues described
                above were unique to NSTS. The system requires a high level of
                security to protect sensitive data; however, approximately 15,000
                personnel from NRC, other Federal Government agencies,
                Agreement State agencies, and licensee entities will have access
                to the system. NRC staff said that an information system of this
                complexity was unprecedented among civilian Federal Government
                agencies, and that NRC had no model on which to base its work.
                Second, one staff member believed that internal stakeholder
                coordination for NSTS was better than for most NRC information
                systems; however, several others claimed that integration of
                priorities and plans among OIS and system sponsors is a common
                problem at NRC, and that closer coordination starting at the outset
                of NSTS development could have prevented disputes over system
                design that impacted the project schedule. Third, staff reported that
                OIS personnel shortages and turnover adversely affected OIS’s
                work on NSTS by disrupting continuity and lengthening review
                time.21 Auditors analyzed NRC staff hour charges for NSTS
                development work and found that OIS work hours surged during
                the project’s initial period, and again during its final stages in fiscal
                year 2008. While the data may reflect reasonable workflow trends,
                the data do not capture OIS’s work on concurrent projects, which
                could have compounded the burden associated with NSTS. Figure
                1.3 shows workload trends for NSTS information system
                development from the first quarter of fiscal year 2006 through the
                third quarter of fiscal year 2008.




21
  CSO reports that it has mitigated the personnel shortfall problem by increasing the number of
NRC staff assigned to information system security tasks. Nevertheless, an August 2008 NRC
assessment of the agency’s information system development processes recommended that NRC
review the adequacy of current staffing levels for technical personnel, particularly as information
systems grow in complexity and criticality to NRC’s mission.



                                                11
                         Audit of National Source Tracking System Information System Development



Figure 1.3: Staff Hours Charged for NSTS Information System
Development, 1st Quarter FY 2006 – 3rd Quarter FY 2008




                1200

                1000
                                                                                           NRC
                800                                                                       Offices
         NRC
         Staff                                                                             NMSS/FSME
         Hours  600
                                                                                           OIS
        Charged
                 400                                                                       Other


                 200

                    0
                    FY 1

                    FY 2

                    FY 3

                    FY 4

                    FY 1

                    FY 2

                    FY 3

                    FY 4

                    FY 1

                    FY 2

                          3
                       6Q

                        Q

                        Q

                        Q

                        Q

                        Q

                        Q

                        Q

                        Q

                        Q

                        Q
                      06

                      06

                      06

                      07

                      07

                      07

                      07

                      08

                      08

                      08
                     0
                  FY




                                      Fiscal Year and Quarter
Source: OIG analysis of NRC Human Resource Management System data.

              Delays Increase Contract Cost, Postpone System Deployment,
              and Raise Questions About Future NRC Information Systems

              As NSTS information system development approached the end of
              its initial contract schedule with key system design issues
              unresolved, NRC modified the baseline contract to increase funds
              for development tasks by approximately $2.8 million. This
              represents an increase of nearly 90 percent over the initial
              development task cost ceiling of $3.1 million, and only reflects cost
              growth directly attributable to extension of the system development
              schedule. In addition to these financial costs, NRC has postponed
              by approximately 18 months deployment of an information system
              that is designed to enhance accountability of radiological sources.
              Senior NRC officials and working-level staff have considered
              development of the NSTS information system a top agency priority.
              However, delays in system development and their underlying
              causes raise concerns about NRC’s management of future
              information systems, particularly since NRC is planning two
              systems to complement NSTS. These and other information




                                           12
                  Audit of National Source Tracking System Information System Development



       systems could face similar delays and cost overruns if the agency
       does not mitigate or resolve procedural and organizational factors
       that hampered timely development of NSTS information system.

       Recommendations

       OIG recommends that the Executive Director for Operations:

       1.   Establish policies and procedures that:

            a. Specify quality standards for C&A and PMM documents.

            b. Specify sequence and protocols for submission and review
               of C&A and PMM documents, to include review of
               milestones linked to project schedules.

            c. Clarify staff roles, responsibilities, and qualifications to
               better integrate internal stakeholders efforts.

       2.   Require staff involved in information systems development to
            undergo periodic training on these policies and procedures.


IV. AGENCY COMMENTS

       At a November 6, 2008, exit conference, NRC senior managers
       agreed with the report contents and provided editorial suggestions.
       This final report incorporates revisions made, where appropriate, as
       a result of the agency’s suggestions.




                                    13
Audit of National Source Tracking System Information System Development




 [Page intentionally left blank.]




                  14
                  Audit of National Source Tracking System Information System Development



                                                                             Appendix
SCOPE AND METHODOLOGY

       Auditors evaluated the agency’s management of NSTS information
       system development. This audit was included as a planned audit in
       the fiscal year 2008 OIG Annual Plan.

       The OIG audit team reviewed Federal Government information
       technology guidance issued by the OMB and NIST, as well as NRC
       internal guidance, including Management Directive 12.5, “NRC
       Automated Information Security Program”; and Management
       Directive 2.8, “Project Management Methodology.”

       Auditors interviewed staff from FSME, OIS, and CSO who have
       been involved in NSTS information system development. Auditors
       also reviewed Federal Government regulations, Federal Register
       notices, NRC public affairs material, NSTS contract documents, e-
       mail correspondence, NSTS information system design documents,
       briefing materials, and automated project management files.
       Auditors analyzed staff interview comments in conjunction with this
       documentary evidence to chronicle events and to identify problems
       in NSTS information system development and underlying causes of
       these problems.

       Auditors further analyzed the NSTS information system contract
       and modifications to calculate contract costs and to identify costs
       directly related to system development delays. Auditors also
       obtained staff hour data for fiscal year 2006 through the third
       quarter of fiscal year 2008 to calculate staff hours charged to time
       codes associated with NSTS information system development.

       This work was conducted at NRC headquarters from April 2008
       through September 2008 in accordance with generally accepted
       Government auditing standards. Those standards require that the
       audit is planned and performed with the objective of obtaining
       sufficient, appropriate evidence to provide a reasonable basis for
       any findings and conclusions based on the stated audit objectives.
       OIG believes that the evidence obtained provides a reasonable
       basis for the report findings and conclusions based on the audit
       objective. The audit work was conducted by Beth Serepca, Team
       Leader; Paul Rades, Audit Manager; and James McGaughey,
       Senior Management Analyst.




                                    15
